No.

IN THE
SUPREME COURT OF THE UNITED STATES

CARTER VINCENT ANDERSON - PETITIONER
vs.

DARREL VANNOY, WARDEN - RESPONDENT^)
PROOF OF SERVICE
I. Carter Vincent Anderson
do swear or declare that on this dale. May 26,2020,
as required by Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party's counsel, and on every other person required to be
served, by depositing and envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Warren Montgomery, District Attorney. 701 N. Columbia Street Covington, Louisiana 70433
I declare under penalty of perjury that file foregoing is true and correct.
Executed on May 26,2020.
(Signature) .„L^£
Carter Vincent Anderson

